TA

2311 Douglas Street Ne L E

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

MATTHEW D. WILSON and TROY EDHLUND,
Petitioners,
v.
COOK COUNTY, a public body and corporate,
TONI PRECK WINKLE, Board President, in her
official capacity, and its Board of Commissioners in
their official capacities, namely: JERRY BUTLER,
DEBORAH SIMS, PETER N. SILVESTRI, JOHN F.
DALEY, LARRY SUFFREDIN, GREGG GOSLIN,
TIMOTHY O. SCHNEIDER, LUIS ARROYO JR.,
RICHARD R. BOYKIN, DENNIS DEER, JOHN A.
FRITCHEY, BRIDGET GAINER, JESUS G. GARCIA,
EDWARD M. MOODY, STANLEY MOORE, SEAN M.
MORRISON, JEFFREY R. TOBOLSKI, and THOMAS
DART, Sheriff of Cook County, in his official capacity,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8683 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of November, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

snout hex. C Clit Qu draw h, Bll
My Commission Expires Nov 24, 2020 G

Notary Public Affiant

 

38856
